        OFFICE OF INSPECTOR GENERAL
FOR THE MILLENNIUM CHALLENGE CORPORATION

SEMIANNUAL REPORT TO THE CONGRESS




                         NICARAGUA               ARMENIA




   GEORGIA              MADAGASCAR              CAPE VERDE




   VANUATU               HONDURAS                 BENIN



             October 1, 2005 - March 31, 2006
                                Inspector General

                 HOTLINE
   The Office of Inspector General (OIG) maintains a Hotline to make it easy to report allegations of fraud,
   waste, abuse, mismanagement or misconduct in the programs and operations of the United States Agency
   for International Development (USAID), the Inter-American Foundation (IAF), the African Development
   Foundation (ADF), and the Millennium Challenge Corporation (MCC). USAID, IAF, ADF and MCC
   employees, contractors, and program participants or the general public may report allegations directly to
   the OIG. The Inspector General Act of 1978 and other laws protect persons making hotline complaints.
   Submit complaints by e-mail, telephone, or mail to:

   Phone                 1-202-712-1023
                         1-800-230-6539

   E-mail                ig.hotline@usaid.gov

   Mail                  USAID OIG HOTLINE
                         P.O. Box 657
                         Washington, DC 20044-0657


   Individuals who contact the Hotline are not required to identify themselves. However, OIG encourages
   those who report allegations to identify themselves so they can be contacted if additional questions arise
   as OIG evaluates their allegations. Pursuant to the Inspector General Act of 1978, the Inspector General
   will not disclose the identity of an individual who provides information unless that individual consents
   or unless the Inspector General determines that such disclosure is unavoidable during the course of an
   investigation. You may request confidentiality when using the telephone or mail. E-mail complaints cannot
   be kept confidential because electronic e-mail systems are not secure.

   During the current reporting period, OIG received 3,826 hotline contacts. Of these, 53 were referred for
   possible case openings, 205 were referred to USAID, seven were referred to other federal agencies, four
   were referred to other law enforcement agencies, and five were found to be unsubstantiated. The remain-
   ing contacts were solicitations for money advertisements, or requests for general information or other
   non-OIG-related matters.


U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
MESSAGE FROM THE
INSPECTOR GENERAL
This Semiannual Report to the      demonstrated its continuing        OIG is prepared to meet the
Congress (SARC) highlights         commitment to accountability.      Corporation’s expanding audit
the work of the United States      It is also worth noting that       needs by focusing on program
Agency for International           MCC Audit Committee had            risk as disbursements increase
Development, Ofﬁce of              its ﬁrst meeting with OIG in       across a range of programs.
Inspector General (USAID/          February 2006.                     OIG is committed to fair and
OIG) for the Millennium                                               transparent oversight and the
Challenge Corporation (MCC)        In response to ﬁndings in our      OIG staff and I look forward to
during the October 2005 to         audit of MCC’s ﬁscal year          working with you on the chal-
March 2006 timeframe.              2005 ﬁnancial statements, we       lenges ahead of us.
                                   will continue to work with
Included are the results of four   MCC management on internal
audit reports and notes that       controls. By doing so, we
MCC reached ﬁnal action on a       will help MCC strengthen its
number of audit recommenda-        internal controls process and
tions during this reporting        avoid potential issues in future
period. By doing so, MCC has       ﬁnancial statement audits.




                                                                      /s/

                                                               Donald A. Gambatesa
                                                               Inspector General
Acronyms and Abbreviations
  ADF           African Development Foundation

  AIG/MCC       Assistant Inspector General/Millennium Challenge Corporation

  BIANCO        Bureau of Independent Anti-Corruption

  CEO           Chief Executive Ofﬁcer

  Corporation   Millennium Challenge Corporation

  FAP           Fiscal Accountability Plan

  FAR           Federal Acquisition Regulations

  FISMA         Federal Information Security Management Act of 2002

  GAO           Government Accountability Ofﬁce

  IAF           Inter-American Foundation

  IG Act        Inspector General Act of 1978

  MCA           Millennium Challenge Account

  MCC           Millennium Challenge Corporation

  NBC           National Business Center

  OIG           Ofﬁce of Inspector General

  OMB           Ofﬁce of Management and Budget

  SAI           Supreme Audit Institutions

  USAID         United States Agency for International Development
Table of Contents
 Reporting Requirements .............................................................................................................................. ii

 Executive Summary ........................................................................................................................................ 1

 Overview               ................................................................................................................................................... 2

           Mission ................................................................................................................................................... 2
           Organization ......................................................................................................................................... 2
           Organizational Chart .......................................................................................................................... 3

 Highlights             ................................................................................................................................................... 4

           The Corporation ................................................................................................................................. 4
           MCC Achievements This Six-Month Period ................................................................................. 4
           Section 609(g) Funding ...................................................................................................................... 5

 Promoting Effective Use of MCC Resources and Improving Prospects for
 Successful Program Implementation ......................................................................................................... 6
             Background ........................................................................................................................................ 6

             Strengthening Accountability Through Oversight Visits to Compact Countries ................ 6

             Strengthening Accountability Through Coordination with Other Government
             Entities ................................................................................................................................................ 9

             Coordination With Other Federal Agencies on Accountability for MCC
             Appropriations .................................................................................................................................. 9

 Strategic Objectives to Address Management Challenges ................................................................ 10
             Introduction ...................................................................................................................................... 10

             Keep the Chief Executive Ofﬁcer of the Corporation and Congress Fully
             Informed on the Status of MCC’s Administration and Operations and the
             Need for Corrective Action ........................................................................................................10

             Promote Sound Accounting and Reporting on Financial Activities
             and Information Security ..............................................................................................................11

             Promote Economy, Efﬁciency and Effectiveness, and Assessing Program
             Results .............................................................................................................................................. 13

             Preserve and Protect the Millennium Challenge Corporation’s Program
             and Employee Integrity .................................................................................................................15

 Appendices ................................................................................................................................................. 18



                                                                                                     SEMIANNUAL REPORT TO THE CONGRESS                                          i
                        Reporting Requirements
The Inspector General Act of 1978, as amended, requires each Inspector General to submit semiannual reports to
the Congress summarizing the activities of the office during the preceding six-month period. The required reporting
areas, as prescribed under Section 5(a) of the Act, include the following:

                       Reporting Requirement                                             Location

     Significant Problems, Abuses and Deficiencies                                    Nothing to Report


     Recommendations for Corrective Actions                                           Nothing to Report


     Summary of Each Significant Report                                                  Pages 11 - 14


                                                                                          Appendix A
     List of Audit Reports Issued
                                                                                           Page 18

     Summary of Each Audit Report over Six Months Old for Which No
                                                                                      Nothing to Report
     Management Decision Has Been Made

     Significant Prior Recommendations on Which Corrective Action Has                     Appendix B
     Not Been Completed                                                                    Page 19


     Statistical Table of Reports with Questioned and Unsupported Costs               Nothing to Report


     Statistical Table of Reports with Recommendations That Funds Be Put
                                                                                      Nothing to Report
     to Better Use

                                                                                         Appendix C
     Summary of Instances in Which Information or Assistance was Refused
                                                                                          Page 20

                                                                                         Appendix C
     Decisions and Reasons for Significant Revised Management Decisions
                                                                                          Page 20

     Significant Management Decisions with Which the Inspector General                   Appendix C
     Disagrees                                                                            Page 20

     Remediation Plan Information (Required under the Federal Financial                  Appendix C
     Management Improvement Act of 1996)                                                  Page 20

     Matters Referred to Prosecutive Authorities and the Prosecutions and                Appendix D
     Convictions Which Resulted                                                           Page 21


ii           SEMIANNUAL REPORT TO THE CONGRESS
EXECUTIVE SUMMARY
This semiannual report high-                               During this reporting period,                    The four reports contained 16
lights signiﬁcant events regarding                         OIG teams visited two Compact                    recommendations to correct
the Ofﬁce of Inspector General                             countries—Madagascar and                         accountability and administra-
(OIG) and presents the results                             Cape Verde—and two prospec-                      tive problems. OIG and MCC
of OIG’s activities pertaining                             tive Compact countries—                          management have reached
to the Millennium Challenge                                Lesotho and Senegal. OIG made                    “management decisions” on all
Corporation (MCC or                                        the visits to assess auditing                    16 of the recommendations, and
Corporation) for the six-month                             capabilities of local accounting                 ﬁnal action has been completed
period ended March 31, 2006.                               ﬁrms; select and approve ﬁrms                    on 10 of the recommendations.
During the reporting period,                               for performing ﬁnancial audits
OIG continued to focus on                                  of MCC Compacts; assess                          OIG also presented fraud
MCC’s Compact accountability                               general program implementa-                      awareness brieﬁngs to MCC
and effective use of resources,                            tion capabilities; and gain                      staff in Washington, D.C.,
and on helping the Corporation                             understanding of the planned                     Madagascar and Cape Verde.
succeed in its mission.                                    program activities in those
                                                           countries. One of those visits                   As of March 31, 2006, the
In February the Inspector                                  resulted in an audit report on                   Corporation had signed eight
General and OIG staff attended                             ﬁnancial risks and vulnerabilities               Compacts with a value of $1.5
the ﬁrst meeting of the                                    in Madagascar. Also, to assist                   billion. These Compacts are
Corporation’s newly appointed                              program managers in meeting                      with Armenia, Benin, Cape Verde,
Audit Committee. During this                               audit responsibilities, OIG                      Georgia, Honduras, Madagascar,
meeting, attendees discussed                               updated and issued OIG guide-                    Nicaragua, and Vanuatu.
the status of OIG audits, audit                            lines for auditing MCC Compact
recommendations, and planned                                                                                 To assist selected countries
                                                           programs.
future audit activities.                                                                                    (Threshold Countries)1 to
                                                           During this reporting period,                    become eligible for Compact
On March 30, 2006, OIG                                     OIG issued four reports                          funding, MCC’s Board of
staff presented a brieﬁng to                               concerning:                                      Directors has approved $185
representatives from coun-                                                                                  million for the United States
tries eligible for future MCC                                 • MCC’s contract management                   Agency for International
Compacts. At this brieﬁng,                                      system,                                     Development (USAID) to use
OIG explained its role and                                                                                  in providing eligibility assistance.
                                                              • MCC’s employee beneﬁts
responsibility for audits and                                                                               As of March 31, 2006, MCC
                                                                program,
investigations, including visiting                                                                          has approved ﬁve countries for
country implementing agen-                                    • MCC’s potential ﬁnancial and                Threshold funding: Burkina
cies, approving audit ﬁrms, and                                 program risk and vulnerabilities            Faso, Malawi, Albania, Paraguay
overseeing audits related to the                                in Madagascar, and                          and Tanzania.
Compacts.
                                                              • audit of MCC’s ﬁscal year 2005
                                                                ﬁnancial statements.




1.   The Threshold Program helps ineligible countries become eligible to apply for MCC assistance.

                                                                                                     SEMIANNUAL REPORT TO THE CONGRESS             1
OVERVIEW
The USAID Ofﬁce of Inspector            ORGANIZATION                             September 30, 2005. The unit will
General (OIG) is responsible for                                                 continue to draw support from
                                        OIG is organized into four areas
providing audit and investigative                                                OIG’s Washington and overseas
                                        of responsibility, with Assistant
services to the United States Agency                                             ofﬁces, as well as external audit
                                        Inspectors General for each area:
for International Development, the                                               ﬁrms. For example, the required
                                        Investigations, Audit, MCC and
African Development Foundation                                                   annual audit of MCC’s compliance
                                        Management. There are seven
(ADF), the Inter-American                                                        with provisions of the Federal
                                        overseas ﬁeld ofﬁces, each headed
Foundation (IAF), and the                                                        Information Security Management
                                        by a Regional Inspector General,
Millennium Challenge Corporation.                                                Act (FISMA) is accomplished with
                                        located in Cairo, Egypt; San Salvador,
Each of these agencies disburses and                                             support from OIG’s Washington
                                        El Salvador; Frankfurt, Germany;
manages U.S. international develop-                                              audit ofﬁces. Additionally, audits
                                        Baghdad, Iraq; Manila, Philippines;
ment assistance.                                                                 of the Corporation’s employee
                                        Dakar, Senegal; and Pretoria, South
                                                                                 beneﬁts program and the ﬁscal
                                        Africa. These regional ofﬁces
MISSION                                                                          year 2005 ﬁnancial statements
                                        maintain close working relationships
                                                                                 were performed by a certiﬁed
The Inspector General Act of 1978       with USAID and enable auditors
                                                                                 public accounting ﬁrm. The fraud
(IG Act), as amended, established       and investigators to carry out OIG’s
                                                                                 awareness brieﬁngs to MCC
OIGs as independent and objective       responsibilities efﬁciently.
                                                                                 personnel and host country entities
units to (1) promote economy,
                                                                                 included presenters from the OIG
efﬁciency and effectiveness in the      OIG activities for MCC are
                                                                                 Investigations unit and Regional
administration of programs and (2)      managed by an Assistant Inspector
                                                                                 Inspector General ofﬁces.
detect and prevent fraud and abuse      General (AIG/MCC). This unit
in program operations. The IG Act       has two divisions, Financial Audits
requires Inspectors General to keep     and Performance Audits. As the
management and the Congress             Corporation continues to develop
fully and currently informed about      and expand its programs, the unit
problems and deﬁciencies relating to    is expanding its staff to provide
the administration of programs and      effective audit oversight of the
operations and the necessity for, and   Corporation’s worldwide programs.
progress of, corrective action.         As of March 31, 2006, the OIG
                                        unit for MCC consists of eight full-
                                        time employees and one part-time
                                        employee, an increase of three since




2         SEMIANNUAL REPORT TO THE CONGRESS
               USAID
   OFFICE OF INSPECTOR GENERAL
                                               Inspector General
                                                                                           Counsel to
                                                 Deputy Inspector General                 the Inspector
               Chief of Staff
                                                                                             General




  Assistant Inspector             Assistant Inspector            Assistant Inspector          Assistant Inspector
General -- Investigations          General -- MCC              General -- Management           General -- Audit




     Deputy AIG/I           Deputy AIG/MCC              Deputy AIG/M          Deputy AIG/A          Deputy AIG/A



     Headquarters
                                                          Human
      Liaison &
                                                          Capital                                 Headquarters
     Coordination              Financial                                      Financial
                                                          Division                                 Liaison &
       Division              Audits Division                                Audits Division       Coordination
                                                                                                    Division

       AFR/ANE                                            Financial
                                                         Resources           Information
        Division              Performance                                   Technology &
                                                          Division                                 Performance
                             Audits Division                                Special Audits        Audits Division
                                                                               Division

       LAC/E&E                                           Information
        Division                                         Technology
                                                           Division




                                          Regional Inspector General Offices




                       San
    Cairo                            Frankfurt          Baghdad          Manila          Dakar              Pretoria
                    Salvador
    Egypt                            Germany              Iraq         Philippines      Senegal           South Africa
                   El Salvador



                                                                        SEMIANNUAL REPORT TO THE CONGRESS            3
HIGHLIGHTS
                                                                                         Final action taken on 20 of the 28
                                                                                  outstanding OIG audit recommendations

THE CORPORATION                                              • Secretary Rice in her capacity                          • Armenia for $235 million
                                                               as MCC Board Chair appointed                              to reduce rural poverty by
The Millennium Challenge                                       an Audit Committee, made up                               strengthening the performance
Corporation was created in                                     of Board members, to assist                               of the agricultural sector. The
January 2004 as an Independent                                 in the general supervision and                            program will seek to improve
Government Corporation to                                      oversight of: MCC’s administra-                           rural roads and irrigation
provide development assistance to                              tive and ﬁnancial controls, the                           infrastructure, provide technical
reduce poverty in countries that                               integrity of MCC’s ﬁnancial                               assistance, and provide ﬁnancial
meet MCC’s criteria of governing                               statements and accounting                                 support to water supply enti-
justly, investing in their people, and                         methodology, and the perfor-                              ties, farmers, and commercial
encouraging economic freedom.                                  mance of MCC audit functions                              agribusinesses. The program
The Corporation is located in                                  carried out by the Inspector                              is expected to directly impact
Washington, D.C. with approxi-                                 General for MCC;                                          approximately 750,000 people,
mately 200 full-time employees. It                                                                                       or 75 percent of the rural popu-
plans to increase its staff to about                         • MCC developed a system for
                                                                                                                         lation, increasing their annual
300 employees during 2006.                                     managing ﬁnal actions on OIG
                                                                                                                         income by an estimated $36
                                                               audit recommendations;
                                                                                                                         million in 2010 and over $113
The Corporation contracts with
                                                             • MCC took ﬁnal action on 20 of                             million in 2015.
the Department of Interior’s
                                                               the 28 outstanding OIG audit
National Business Center in Denver,                                                                                    • Benin for $307 million to
                                                               recommendations;
Colorado for its accounting, payroll                                                                                     improve its physical and institu-
and other administrative services.2                          • The MCC Board approved                                    tional infrastructure by focusing
The Corporation has agreements                                 Threshold agreements valued                               on access to land, ﬁnancial
with the Army Corp of Engineers,                               at approximately $95 million                              services, justice, and markets.
Department of Agriculture, Treasury                            with Albania, ($13.9 million),                            The program is expected
Department, Department of                                      Paraguay ($34.7 million),                                 to beneﬁt up to ﬁve million
Transportation, and the Bureau                                 Burkina Faso ($12.9 million),                             Beninese and lift an estimated
of Census for technical services                               and Malawi ($20.9 million), and                           250,000 of its citizens out of
supporting Compact implementa-                                 Tanzania ($11.2 million). Those                           poverty by the year 2015.
tion. MCC also has an agreement                                agreements will target activities
                                                                                                                       • Vanuatu for $66 million to
with USAID for managing inidividual                            designed to help those countries
                                                                                                                         improve Vanuatu’s transporta-
country Threshold programs.                                    become eligible for a future
                                                                                                                         tion infrastructure, including
                                                               Compact.
                                                                                                                         roads, wharfs, an airstrip and
MCC ACHIEVEMENTS
                                                             • MCC signed three Compact                                  warehouses. The project will
THIS SIX-MONTH                                                                                                           also seek to improve Vanuatu’s
                                                               agreements for a total of eight,
PERIOD                                                         as of March 31, 2006.                                     Public Works Department. The
                                                                                                                         program is expected to beneﬁt
During the period October 1, 2005                         The three compact agreements                                   more than 65,000 rural poor
to March 31, 2006:                                        signed from October 1, 2005 to                                 inhabitants.
                                                          March 31, 2006, include:

2.   The National Business Center is an administrative and computer information service provider for the Department of Interior and other Federal agencies.


4               SEMIANNUAL REPORT TO THE CONGRESS
SECTION 609(g)                           Before MCC considers providing
FUNDING                                  funding, the country team prepares
                                         a formal request for MCC
Section 609(g) of the Millennium         Investment Committee (who
Challenge Act gives MCC the              approves or rejects proposals).
authority to enter into contracts        After the Investment Committee
or grant agreements for any eligible     makes its decision, it informs
country to assist in facilitating the    Congress through a Congressional
development and implementation           Notiﬁcation. From that point, MCC
of a Compact between the United          provides several key documents
States and the eligible country. In      to the country, such as the grant
so doing, MCC funds projects such        and implementation agreements
as feasibility studies, and surveys in   or memorandum of understanding.
order to ensure the sustainability       However, if the funding is for
of the proposed project in the           discrete purposes, MCC does not
Compact. The general categories          use these documents. Thereafter,
to which the 609(g) funding funds        MCC determines whether it or the
include: program development,            recipient country should be the
project preparation, monitoring and      ﬁscal and procurement agent.
evaluation, management support, and
bridge funding.

As of March 28, 2006, MCC has
committed to provide $35.2
million in 609(g) funding to 11
eligible countries—Benin, Lesotho,
Ghana, Mozambique, Nicaragua,
Georgia, Senegal, Mali, Cape Verde,
Madagascar, and Armenia—of
which two received post-Compact
funding, termed Bridge funding.
MCC provides Bridge funding to
countries after they have signed
their compact and need money to
set-up their ofﬁces. The amount of
Bridge funding is subtracted from
the total Compact amount that the
country receives from MCC. In
addition, although MCC has agreed
to provide 609(g) funding to these
countries, it has only disbursed
the funding to few countries.
Furthermore, MCC does not
disburse the full amount at once, but
in portions, according to the work
that is being conducted at a speci-
ﬁed period of time.




                                                                      SEMIANNUAL REPORT TO THE CONGRESS   5
PROMOTING EFFECTIVE USE OF
MCC RESOURCES AND IMPROVING
PROSPECTS FOR SUCCESSFUL PROGRAM
IMPLEMENTATION
BACKGROUND                                STRENGTHENING                            Given these inherent vulnerabilities
                                          ACCOUNTABILITY                           of the Corporation’s programs,
The Millennium Challenge
                                                                                   OIG has continued its collaborative
Corporation is an independent             THROUGH OVERSIGHT
                                                                                   approach with MCC to ensure the
government corporation established        VISITS TO COMPACT                        programs are effective. During
by Congress in January 2004. As           COUNTRIES                                the past six-month period, OIG
such, it is subject to the regulations
                                          Our overriding goal is to support        assessed the oversight capabilities of
of the Government Corporation
                                          management in the delivery of its        Compact-implementing entities and
Control Act, which provides it some
                                          programs by helping management           the auditing capabilities of potential
ﬂexibility compared to other Federal
                                          ensure that the Corporation oper-        auditing ﬁrms and government audit
agencies. However, MCC is subject
                                          ates efﬁciently, effectively and with    institutions in Madagascar, Lesotho
to many of the laws and regulations
                                          integrity. Our activities are designed   and Cape Verde.
that apply to most Federal agencies,
                                          to prevent and detect fraud, waste
including the requirements for
                                          and abuse; ensure the effective use      OIG Visits Madagascar
accountability and sound manage-
                                          of MCC resources; and ensure the
ment. MCC has identiﬁed the                                                        In November 2005, OIG made an
                                          economy, efﬁciency and effective-
speciﬁc laws and regulations to                                                    oversight visit to the Republic of
                                          ness of MCC’s administrative and
which it is subject.                                                               Madagascar to assess progress in
                                          program operations.
                                                                                   implementing the activities under
As the Corporation develops its                                                    Madagascar’s compact agreement
                                          As of March 31, 2006, the
program and operating concepts                                                     with MCC. During that visit, OIG
                                          Corporation had signed eight
and procedures, OIG works closely                                                  met with various individuals involved
                                          country Compacts with a total
with its executives and managers                                                   with developing the proposal and
                                          value of $1.5 billion and has made
to enhance our knowledge of the                                                    providing assistance in the compact
                                          program-related disbursements of
Corporation’s programs, activi-                                                    activities. Several discussions were
                                          more than $13 million under three
ties, and vulnerabilities, including                                               held with key staff of the newly
                                          of those Compacts.
its administrative and accounting                                                  created Millennium Challenge
processes. OIG has taken and                                                       Account (MCA) Madagascar (the
                                          MCC is still a relatively new orga-
continues to take the approach that                                                Compact implementing organiza-
                                          nization which has not yet reached
early involvement in MCC activities                                                tion) to discuss policies and
                                          its optimum stage of organizational
will help ensure good management.                                                  procedures and implementation
                                          development and which is imple-
We seek to establish a framework                                                   activities. OIG also met with key
                                          menting development Compact
for providing early feedback to help                                               staff of MCA/Madagascar’s ﬁscal and
                                          programs based on an innovative
MCC ensure that MCC admin-                                                         procurement agent to review the
                                          development assistance model that
istrative functions and Compact                                                    progress in building its organiza-
                                          has not been fully tested. These
programs are based on a solid                                                      tional structure and developing poli-
                                          programs are being implemented
foundation of effective accountability.                                            cies and procedures to comply with
                                          in countries where varying degrees
                                          of corruption are prevalent and          MCC’s requirements, and to assess
                                          standards of accountability vary.        their understanding of their role,
                                                                                   responsibilities and familiarity with
                                                                                   MCC’s criteria. Also, OIG met with



6          SEMIANNUAL REPORT TO THE CONGRESS
USAID/Madagascar to discuss its
involvement and coordination efforts
with MCC and the assistance it is
providing under the pre-Compact
funding assistance.

In December 2005, OIG performed a
risk assessment of MCA Madagascar,
the implementing organization
for MCC’s $110 million Compact
program in Madagascar, to identify
and evaluate vulnerabilities in high-
risk areas. The risk assessment
was performed during the MCA
Madagascar initial implementation
phase. OIG’s review disclosed that
MCA Madagascar had high vulner-                     Photograph of one of the two USAID OIG brieﬁngs to MCA staff, SAI,
                                                    Cape Verde Ministry of Finance personnel and local accounting ﬁrms.
abilities in several critical areas that            OIG presented information on fraud detection and prevention and
could adversely impact its ﬁnancial                 audit guidelines that will be used to audit recipients of MCC funds.
operations.

The results of our Madagascar risk         responsibility to (1) investigate     During a visit to Cape Verde, OIG
assessment are discussed in greater        allegations of fraud, waste and abuse staff presented brieﬁngs on fraud
detail on page 12.                         in programs and operations; (2) help  awareness and MCC audit guidelines.
                                           MCC management prevent fraud,         Attending these brieﬁngs were
Concurrent with the risk assess-
                                           waste and abuse in programs; and      MCA/Cape Verde personnel, local
ment in Madagascar, OIG presented
                                           (3) preserve and protect employee     accounting ﬁrms, and Ministry of
a fraud awareness brieﬁng to
                                           integrity by conducting investigationsFinance staff. The fraud awareness
the Bureau of Independent
                                           of employee integrity.                brieﬁng focused on the role of the
Anti-Corruption (BIANCO) of
                                                                                 USAID OIG ofﬁces to prevent and
Madagascar and to the MCA
Madagascar staff. BIANCO is an
                                           OIG Visits Cape Verde                 investigate fraudulent activities. The
                                                                                 brieﬁng presented indicators of fraud
independent government organiza-           OIG conducted a risk assessment
                                                                                 as well as environments that promote
tion created in 2003 to ﬁght corrup-       of Millennium Challenge Account
                                                                                 fraud. OIG team provided training on
tion.                                      (MCA), Cape Verde, the implementing
                                                                                 the audit requirements for projects
                                           organization for MCC’s $110 million
The fraud awareness brieﬁngs                                                     funded with MCC assistance. The
                                           Compact program in Cape Verde,
focused on the role of OIG in helping                                            presentation covered audit standards,
                                           to identity high-risk areas. The risk
MCC management design and                                                        the reporting process, and IG quality
                                           assessment was performed during
implement controls and processes                                                 control procedures over audits of
                                           the MCA Cape Verde implementation
to prevent fraudulent activities, and                                            MCC assistance.
                                           phase. At the end of March 2006,
in investigating potentially fraudulent    OIG staff were in the process of      To ensure management accountability
activities when they do occur.             completing their analysis.            of the U.S. assistance to Cape Verde,
The brieﬁng presented indicators                                                 OIG evaluated local accounting ﬁrms
of fraud as well as environments                                                 in Lisbon, Portugal and Cape Verde to
that promote fraud. The brieﬁngs                                                 audit MCC assistance. The team also
explained that it is the USAID Ofﬁce                                             met with the president of Tribunal de
of Investigations’ (Investigations)


                                                                               SEMIANNUAL REPORT TO THE CONGRESS           7
Contas de Cabo Verde, the Cape Verde
Supreme Audit Institution, and his key
staff to gain an understanding of the
professional and regulatory environ-
ment in which audits are conducted in
Cape Verde.

OIG Visits the Kingdom of Lesotho
In November 2005, OIG staff visited
the Kingdom of Lesotho to review the
management and implementation of the
activities funded under the $1.39 million
609(g)3 grant designed to assist with the
Compact development process. During
the visit, OIG staff interviewed govern-
ment ofﬁcials to obtain the country’s
perspective of working with MCC and
the challenges it faced in developing a                              Photograph of village residents discussing local needs in anticipation of a
                                                                     future MCC Compact.
proposal meeting MCC’s criteria.

OIG staff also interviewed procure-
ment evaluation committee members
responsible for selecting consultants
to conduct the 609(g)-funded studies
to determine their understanding of
the procurement guidelines and the
policy and procedures for evalua-
tions. Furthermore, OIG observed a
consultative process held in a remote
village in Lesotho. Several villages were
represented at the meeting, which
provided a platform for identifying
community needs and making corre-
sponding action plans. The meeting
was led by the Director of Planning of
the Ministry of Local Government. The
MCA Coordinator and MCC’s Country
Director addressed the gathering and
talked about MCC’s goals and objectives                              Photograph of voting system used by villagers to identify priorities for
and how MCC could assist them in                                     potential development assistance funding. Village representatives vote by
                                                                     placing stones in cans which represent different program options.
meeting their needs.

 Some of the needs identiﬁed were (1)
water in the villages, (2) bridges and
roads, (3) proper sanitation facilities,
and (3) getting products to markets.

3.   609(g) is a provision in the Millennium Challenge Act whereby MCC may provide funds to an eligible country to facilitate the development and implementation of a
     Compact

8              SEMIANNUAL REPORT TO THE CONGRESS
                           • Establish extensive coordination process with GAO
                           • Initiate early dialogue with OMB
                           • Exchange information with other OIG’s on interagency
                             agreements


Several of the villagers expressed         this Act, each Inspector General shall     time lines. Moreover, as part of OIG
their dissatisfaction about the long       give particular regard to the activities   coordination efforts, OMB ofﬁcials
distances they had to walk to get to       of the Comptroller General of the          participated in our annual planning
a river that was oftentimes very low       United States with a view toward           conference.
or dried up. Other villagers wanted        avoiding duplication and insuring
to know how soon solutions to the          effective coordination and coopera-        COORDINATION
needs that they identiﬁed would be         tion.”                                     WITH OTHER FEDERAL
implemented. After the needs were                                                     AGENCIES ON
identiﬁed, the villagers voted on them     The Government Accountability              ACCOUNTABILITY FOR
and will submit action plans to the        Ofﬁce                                      MCC APPROPRIATIONS
local district. Below is a picture of
the voting process the villagers used.     OIG has established an extensive
                                                                                      MCC has entered into a number of
Each can represents an identiﬁed           coordination process with the
                                                                                      interagency agreements with other
need, and the villagers vote by drop-      Government Accountability Ofﬁce
                                                                                      Federal entities to help implement
ping stones in the cans representing       (GAO), which includes ongoing inter-
                                                                                      its programs. For funds transferred
that need.                                 action with GAO staff involved in
                                                                                      from MCC to USAID, the oversight
                                           responding to Congressional requests
                                                                                      responsibility remains with the
STRENGTHENING                              for oversight of MCC’s operations.
                                                                                      Inspector General for USAID.
                                           OIG’s coordination with GAO
ACCOUNTABILITY
                                           provides reasonable assurance that         Other recipients of MCC funds
THROUGH                                    all relevant areas of MCC’s activities     include the Army Corps of Engineers,
COORDINATION WITH                          are receiving oversight while avoiding     Department of Agriculture,
OTHER GOVERNMENT                           duplication of effort.                     Treasury Department, Department
ENTITIES                                                                              of Transportation, and Bureau of
                                           The Ofﬁce of Management and                Census. OIG’s role will be to contact
The Congress gave MCC broad ﬂex-
ibility to accomplish its mandate and
                                           Budget                                     the Inspector General ofﬁces in those
establish itself as a model organiza-                                                 agencies to exchange information
                                           OIG coordinates with the Ofﬁce of
tion that is transparent, embraces                                                    about the interagency agreements in
                                           Management and Budget (OMB) by
accountability, and is results-oriented.                                              an effort to advance accountability
                                           obtaining a clear understanding of
Support of this unique develop-                                                       for MCC funds.
                                           the ﬁnancial and program manage-
ment concept requires that we              ment regulations applicable to MCC
establish clear expectations and           in keeping with its broad program
avoid duplication of effort with           ﬂexibilities. Where there are areas
other government units that have           that require interpretation, OIG
oversight responsibilities. Speciﬁcally,   initiates early dialogue with OMB and
the Inspector General Act of 1978,         MCC management to help ensure
(Section 4.(c)) as amended, requires       compliance with important reporting
that “In carrying out the duties and
responsibilities established under



                                                                             SEMIANNUAL REPORT TO THE CONGRESS               9
STRATEGIC OBJECTIVES TO ADDRESS
MANAGEMENT CHALLENGES
INTRODUCTION
Management challenges are deﬁned                   The Corporation is dealing with the challenges
as risks and vulnerabilities that need
                                                   of implementing new and innovative programs
to be addressed by management.
Having been established for just over              in complex overseas environments...
two years, the Millennium Challenge
Corporation faces the normal
challenges of any new organization:        In addition, OIG has four goals       mendation follow-up procedures;
developing ﬁnancial systems, hiring        consistent with the IG Act of         and issuing four audit reports with
staff, determining applicability of laws   1978, as amended, under which it      recommendations to improve the
and regulations, developing internal       conducts audits and reviews to help   Corporation’s operations.
controls, and developing an effective      the Corporation address and over-
program management and oversight           come its management challenges.       KEEP THE CHIEF
methodology. And having signed             These four goals are to:              EXECUTIVE OFFICER
eight Compacts, the Corporation
is dealing with the challenges of                                                OF THE CORPORATION
                                            • Keep the Chief Executive
implementing new and innovative               Ofﬁcer of the Corporation and
                                                                                 AND CONGRESS FULLY
programs in complex overseas                  Congress fully informed on the     INFORMED ON THE
environments—with differences in              status of MCC’s administration     STATUS OF MCC’S
language, laws and accountability             and operations and the need for    ADMINISTRATION AND
standards as well as varying degrees          corrective actions,                OPERATIONS AND THE
of corruption in many of the coun-
                                            • Promote sound accounting and       NEED FOR CORRECTIVE
tries where it will likely implement
programs.                                     reporting on ﬁnancial activities   ACTIONS
                                              and information security,          This goal is designed to make
To clearly understand these chal-                                                sure that potential management
                                            • Promote economy, efﬁciency
lenges and to select the appropriate                                             challenges and progress thereon
                                              and effectiveness and assess
OIG response to them, OIG                                                        are addressed early and openly by
                                              program results, and
undertakes an extensive annual                                                   communicating on an ongoing basis
planning process, obtaining views           • Preserve and protect MCC’s         with Corporation management and
and concerns on issues affecting the          program and employee integrity.    the Congress. Speciﬁcally, OIG:
Corporation as well as soliciting
feedback on the usefulness of our          Activities undertaken to meet these    • Prepares and submits semian-
work. Participants in this planning        goals included ongoing dialogue          nual reports to Congress.
process include representatives of         with the General Accountability          The IG Act requires that OIG
USAID and Ofﬁce of Management              Ofﬁce; conducting a fraud-aware-         provide Congress with written
and Budget, and senior managers of         ness brieﬁng in March 2006;              reports of its activities and
MCC.                                       meeting with the recently appointed      accomplishments every six
                                           Audit Committee; working with            months. The reports include
                                           Corporation management to                OIG audit and investigative
                                           develop effective audit recom-           highlights as well as summaries
                                                                                    of signiﬁcant audits performed



10         SEMIANNUAL REPORT TO THE CONGRESS
  during the reporting period.        PROMOTE SOUND                             • The ﬁnancial statements were
  This is the fourth Semiannual       ACCOUNTING AND                              fairly presented in conformity
  Report to Congress and covers                                                   with U.S. generally accepted
                                      REPORTING ON
  the period ending March 31,                                                     accounting principles
  2006.
                                      FINANCIAL ACTIVITIES
                                      AND INFORMATION                           • There were four reportable
• Presents timely brieﬁngs to the     SECURITY                                    conditions regarding the
  Board, Chief Executive Ofﬁcer                                                   controls over ﬁnancial reporting
  (CEO), and key MCC ofﬁcials on      This goal addresses the                     and its operations. One of the
  critical problem areas identiﬁed    Corporation’s challenges of devel-          four reportable conditions is a
  by OIG audits and investigations.   oping effective ﬁnancial management         material weakness
  For example, in February, OIG       systems and the related internal
                                      controls. These systems should            • There were three instances of
  met with the Board’s Audit
                                      be designed to ensure that MCC              noncompliance with laws and
  Committee to introduce OIG
                                      prepares, records and reports               regulations related to the review
  staff and brief the Committee
                                      reliable ﬁnancial data relating to its      of its ﬁnancial and accounting
  members on the status of OIG
                                      administrative and program opera-           system.
  audits, audit recommendations
  and other audit-related matters.    tions. The OIG completed three
                                      audits this period to address these      The material weakness and the
  OIG had frequent meetings with
                                      challenges: an audit of MCC’s Fiscal     reportable conditions identiﬁed
  the CEO and continuing interac-
                                      Year 2005 Financial Statements,          in the internal controls relate to
  tions with MCC senior manage-
                                      an agreed-upon procedures audit          MCC’s need to develop written poli-
  ment. In its meetings with the
                                      covering MCC employee beneﬁts            cies and procedures to streamline
  CEO, the OIG discussed signiﬁ-
                                      program, and a Risk Assessment           its ﬁnancial operations. The absence
  cant audits and the status of
                                      of MCC’s Compact program in              of a complete set of effective
  the Corporation’s management
                                      Madagascar. Additionally, one risk       written policies and procedures for
  controls, as well as program
                                      assessment of MCC’s program in           these operations increased the risk
  oversight and monitoring efforts.
                                      Cape Verde was underway at the           of errors, improper recording, unau-
• Conducts audits and distributes     end of March 2006.                       thorized transactions, omissions,
  audit reports to MCC manage-                                                 potential funds control violations,
  ment and congressional staff in     Audit of the Millennium                  and noncompliance with laws and
  a timely manner. All non-clas-                                               regulations.
                                      Challenge Corporation’s
  siﬁed reports are transmitted
                                      Financial Statements, Internal           The external auditors reported the
  to appropriate congressional
  committees. These reports
                                      Controls, and Compliance for             following internal control weak-
                                      the Period Ending September              nesses or reportable conditions:
  are in compliance with the
  Americans with Disabilities         30, 2005, and the Nine-Month              1. Policies and procedures were
  Act and are posted to the OIG       Period Ending September 30,                  not always complete and consis-
  website at www.usaid.gov/oig.       2004                                         tent (material weakness)

                                                                                2. Policies and procedures for
                                      In its audit of the Millennium
                                                                                   managing travel and related
                                      Challenge Corporation’s ﬁnancial
                                                                                   disbursements do not permit
                                      statements for the period ending
                                                                                   the effective and efﬁcient
                                      September 30, 2005, and the nine-
                                                                                   management of travel (report-
                                      month period ended September 30,
                                                                                   able condition)
                                      2004, the external auditors found
                                      that:




                                                                      SEMIANNUAL REPORT TO THE CONGRESS            11
 3. Policies and Procedures for             priate recording of custodial      Bulletin 01-02, Audit Requirements
    disbursing advances to grantees         interest receivable and payable    for Federal Financial Statements as
    do not accommodate effec-               (reportable condition and          amended by M-04-22 on July 27,
    tive cash management nor                noncompliance).                    2004.
    the appropriate recording of
                                        The report contained ﬁve recom-        In its report on the Agreed-Upon
    custodial interest receivable and
                                        mendations for MCC to strengthen       Procedures of MCC’s Retirement,
    payable (reportable condition
                                        its policies and procedures to         Health Beneﬁts, and Life Insurance
    and noncompliance)
                                        address the internal control           Withholdings/Contributions and the
 4. Policies and Procedures for         weaknesses and the instances of        Supplemental Semiannual Headcount
    managing Its ﬁnancial operations    noncompliance identiﬁed above.         Report submitted to OPM by MCC
    are inadequate (reportable          Management accepted the ﬁve            for the period ended February 19,
    condition)                          recommendations and management         2005, OIG found that the informa-
                                        decisions were reached on all ﬁve      tion appeared reasonable based on
OIG also reported the following
                                        recommendations.                       the sample selected and the Agreed-
instances of noncompliance with
laws, regulations, contracts, and                                              Upon Procedures performed.
                                        (Report No. M-000-06-001-C)
grant agreements, inclusive of those
                                                                               Based upon the sample reviewed
referred to in the Federal Financial    Audit of the Millennium                by the auditors and the Agreed-
Management Improvement Act
                                        Challenge Corporation’s                Upon Procedures performed,
of 1996 (FFMIA), and disclosed
instances of noncompliance or other
                                        Retirement, Health                     the Retirement, Health Beneﬁts,
matters that are required to be         Beneﬁts, and Life Insurance            and Life Insurance Withholdings/
                                        Withholdings/Contributions and         Contributions as well as enroll-
reported herein under Government
                                                                               ment information submitted via
Auditing Standards, issued by the       the Supplemental Semiannual
                                                                               the Semiannual Headcount Report
Comptroller General of the United       Headcount Report Submitted             appeared reasonable. Therefore, the
States, and Ofﬁce of Management         to the Ofﬁce of Personnel              audit report contains no ﬁndings or
and Budget (OMB) Bulletin No. 01-
                                        Management (OPM) for the               recommendations.
02, Audit Requirements for Federal
Financial Statements:
                                        Period Ended February 19,
                                        2005                                   (Report No. M-000-06-002-F)
 1. MCC did not fully comply with
    requirements mandated by the        The Ofﬁce of Inspector General         Risk Assessment of MCA
    Federal Financial Management        (OIG) contracted with an indepen-      Madagascar’s Financial
    Improvement Act (FFMIA) and         dent certiﬁed public accounting        Operations
    Government Performance              ﬁrm to perform Agreed-Upon
    Results Act (GPRA) (material        Procedures for the Millennium          OIG performed a risk assess-
    noncompliance).                     Challenge Corporation’s (MCC)          ment of MCA Madagascar from
                                        Retirement, Health Beneﬁts, and        December 12 thru December
 2. MCC did not fully comply with       Life Insurance Withholdings/           16, 2005, to evaluate and identify
    Federal Information Security        Contributions and the Supplemental     vulnerabilities in high risk areas
    Management Act FISMA (mate-         Semiannual Headcount Report            that may impact MCA Madagascar’s
    rial noncompliance).                submitted by MCC to OPM for the        ﬁnancial operations. The risk assess-
                                        period ended February 19, 2005.        ment was performed during MCA
 3. MCC policies for disbursing
                                        The contract required that the audit   Madagascar initial implementation
    advances to grantees did not
                                        be performed in accordance with        phase to detect vulnerabilities early
    accommodate effective cash
                                        generally accepted auditing stan-      that may prevent MCA Madagascar
    management nor the appro-
                                        dards; generally accepted govern-      from establishing effective ﬁnancial
                                        ment auditing standards; and Ofﬁce     operations. Based on a preliminary
                                        of Management and Budget OMB)          assessment of MCA Madagascar’s

12        SEMIANNUAL REPORT TO THE CONGRESS
                                                                                 These concerns were discussed with
                                                                                 MCA Madagascar and MCC manage-
                                                                                 ment. They generally agreed with
    High risk associated with MCA Madagascar’s
                                                                                 OIG results of the risk assessment
             overall ﬁnancial operations                                         and have begun to implement correc-
                                                                                 tive actions.

operations, OIG determined that            Fiscal Accountability Plan (FAP) to   (Report No. M-000-06-003-F)
the most critical ﬁnancial areas were      establish ﬁnancial policies, proce-
procurement, cash management,              dures, controls and processes for     PROMOTE ECONOMY,
and disbursements. OIG designed            performing ﬁnancial operations.       EFFICIENCY, AND
its risk assessment to identity and                                              EFFECTIVENESS, AND
evaluate vulnerabilities in these       Although not required by MCC             ASSESS PROGRAM
areas. The review covered MCA           until January 27, 2006, at the time
                                                                                 RESULTS
Madagascar’s operations from            of the audit ﬁeld work MCA
inception through December 9,           Madagascar had not implemented a         This goal addresses the Corporation’s
2005. The objective of this review      comprehensive FAP. OIG determined        challenges related to human
was to determine whether MCA            that the risk associated with MCA        resources, determining the applica-
Madagascar had vulnerabilities that     Madagascar’s overall ﬁnancial opera-     bility of laws and regulations, and
may adversely impact their ﬁnancial     tions was high because the delay         developing an effective management
operations. The OIG found that          in implementing a FAP may have           oversight methodology. OIG has
MCA Madagascar had high vulner-         hampered their ability to accurately     undertaken the following audits to
abilities in several critical areas thataccount for and safeguard funds          better understand management’s
may adversely impact their ﬁnancial     disbursed under the Compact agree-       response to these challenges and to
operations.                             ment. OIG found that the absence of      provide management with recom-
                                        a comprehensive FAP resulted in key      mendations to address the vulner-
Objective                               ﬁnancial operations being performed      abilities associated with them.
                                        inconsistently and not in compli-
Does MCA Madagascar have vulner-
                                        ance with the Compact agreement.         Audit of Millennium Challenge
abilities that may adversely impact its
ﬁnancial operations?
                                        Speciﬁcally,                             Corporation’s Contract Award
                                                                                 Process
                                            • MCA Madagascar did not have
OIG found that MCA Madagascar
                                              a consistent process for making    The Millennium Challenge
did have high vulnerabilities in
                                              disbursements.                     Corporation was established in
several critical areas that may
adversely impact their ﬁnancial             • MCA Madagascar’s accounting        January 2004 to further global
operations.                                   system did not record commit-      development by promoting economic
                                              ments or obligations.              growth, eliminating extreme poverty,
Weaknesses in the Millennium                                                     and strengthening good governance,
Challenge Corporation’s oversight of        • MCA Madagascar did not             economic freedom, and investments
MCA Madagascar’s initial implemen-            have standard procedures for       in people. Since its inception, MCC
tation phase hindered implementa-             managing property purchased        has dedicated its resources to estab-
tion of effective ﬁnancial policies and       with MCA funds.                    lishing its operations and developing
procedures. The Compact requires                                                 the infrastructure it needs to conduct
MCA Madagascar to implement a                                                    business. In its ﬁrst year of opera-
                                                                                 tions, MCC’s procurement function
                                                                                 was staffed primarily with a series
                                                                                 of temporary contractor employees



                                                                           SEMIANNUAL REPORT TO THE CONGRESS        13
under the direction of a contracting      FAR Sub-parts 4.6 and Part 19 that        • A non-citizen was allowed to
ofﬁcer. As of June 30, 2005, MCC’s        implement the Federal Procurement           work in MCC headquarters
Acquisitions Ofﬁce included four full-    Data System contract action                 without MCC ensuring the indi-
time direct-hire contracting ofﬁcers      reporting requirement and the Small         vidual was eligible to work in the
and specialists, and one personal         Business Act, respectively.                 U.S.
services contractor. In addition, until
                                          During OIG’s audit ﬁeldwork, MCC         The audit report contains nine
March 31, 2005, MCC had an agree-
                                          ofﬁcials stated that they had been       recommendations to address
ment with the U.S. Department of
                                          following the FAR requirements           the problem areas and areas for
Interior’s National Business Center
                                          regardless of their applicability.       suggested improvement. The
to provide assistance with award
                                          However, subsequent to the comple-       recommendations for MCC include
solicitations and other procurement
                                          tion of audit ﬁeldwork, MCC advised      establishing a small business procure-
activities.
                                          that there was misperception among       ment preference program and annual
MCC’s Acquisitions Ofﬁce has              some MCC staff that MCC was              procurement preference goals,
the responsibility for procuring          following the FAR voluntarily but        establishing policies on preparing
all supplies and services for the         was not legally required to do so. In    supporting documentation for sole
various program ofﬁces of MCC.            response to our recommendation,          source procurements, incorporating
From MCC’s inception until May            MCC issued a memorandum to its           additional policies into training
10, 2005, MCC made approximately          staff emphasizing that the FAR applies   classes for non-procurement
200 awards, including contracts,          to all MCC domestic procurement          personnel, and establishing a policy
purchase orders, agreements with          activities as a matter of law. Other     on the use of personal services
other Federal agencies, and blanket       problem areas, as well as areas for      contractors. MCC has accepted and
purchase orders. Many of these            suggested improvement, involving the     implemented corrective action on all
awards were for smaller purchases         procurement function include:            of the recommendations.
such as a $30 newspaper subscrip-
                                           • Justiﬁcations for several sole-       (Report No. M-000-06-001-P)
tion, but they also included awards
exceeding $1 million.                        source procurements
                                             were inadequate, overstated, and
OIG conducted this audit to                  insufﬁciently documented
determine if MCC complied with
                                           • Non-procurement personnel
applicable laws and regulations in
                                             either did not follow procure-
awarding its contracts.
                                             ment regulations or their actions
The audit concluded that MCC has             created the appearance of
followed many of the requirements            partiality
of procurement laws and regula-            • Policies and procedures regarding
tions including parts or sections of         the use of personal services
the Federal Acquisition Regulation           contractors have not yet been
(FAR) and in its ﬁrst 18 months of           established
operation has established a fully
functioning procurement activity
that has made the numerous awards
expected for a new Federal entity.
Initially, MCC ofﬁcials believed that
Federal procurement requirements                     Misperception among MCC staff results in
did not apply to MCC and speciﬁcally                 issuance of a memorandum emphasizing
claimed an exemption from following                  applicability of FAR to all MCC domestic
                                                     procurement activities.

14        SEMIANNUAL REPORT TO THE CONGRESS
PRESERVE AND PROTECT
THE MILLENNIUM
CHALLENGE
CORPORATION’S
PROGRAM AND
EMPLOYEE INTEGRITY
This goal is designed to foster the
integrity of program and operational
activities. OIG’s focus on the
prevention of fraud and protection
of resources is to ensure MCC’s
employees and programs are of the
highest integrity and to enhance the
awareness of MCC staff to potential
indicators of fraud. To achieve this
goal, OIG presented its third fraud
awareness brieﬁng to MCC staff.

Investigations: Prevention and
Fraud Awareness
On March 22, 2006, OIG presented
a brieﬁng on fraud awareness to
an audience of approximately 40
members of the Corporation. In
addition, OIG presented fraud
awareness brieﬁngs in Madagascar
and Cape Verde.




                                       SEMIANNUAL REPORT TO THE CONGRESS   15
A
P
P
E
N
D
I
C
E
S
    17 17
                                  REPORTS ISSUED
                         October 1, 2005 through March 31, 2006

                                                                                                       Amount of
     Report        Date of                                                                                         Type of
                                                            Report Title                                Findings
     Number        Report                                                                                          Findings
                                                                                                        ($000s)
 M-000-06-001-P   10/11/2005   Audit of the Millennium Challenge Corporation’s Contract Award
                               Process
 M-000-06-001-C   12/06/2005   Audit of Millennium Challenge Corporation’s Financial Statements,
                               Internal Controls, and Compliance for the Period Ending September 30,
                               2005, and the Nine Month Period Ending September 30, 2004
 M-000-06-002-F   02/28/2006   Audit of the Millennium Challenge Corporation’s Retirement, Health
                               Beneﬁts, and Life Insurance Withholdings/Contributions and the
                               Supplemental Semiannual Headcount Report Submitted to the Ofﬁce of
                               Personnel Management (OPM) for the Period Ended February 19, 2005

 M-000-06-003-F   03/28/2006   Risk Assessment of MCA Madagascar’s Financial Operations




18     SEMIANNUAL REPORT TO THE CONGRESS                                                                           Appendix A
                    SIGNIFICANT AUDIT RECOMMENDATIONS
                     DESCRIBED IN PREVIOUS SEMIANNUAL
                       REPORTS WITHOUT FINAL ACTION
                              As of March 31, 2006
                                                                                                              Final
     Report                                                                           Rec.   Management      Action
                                  Subject of Report                      Issue Date
     Number                                                                           No.    Decision Date   Target
                                                                                                              Date
 M-000-05-002-P   Formalize and document MCC’s administrative and        03/31/2005    1      03/31/2005
                  program internal control system and establish a
                  deﬁned timetable for completing the process
 M-000-05-003-P   Establish and document plans to ensure continuity of   06/20/2005    8      06/20/2005
                  operations for information systems




Appendix B                                                                    SEMIANNUAL REPORT TO THE CONGRESS       19
                                 REPORTING REQUIREMENTS

Summary of Instances                   Remediation Plan                       MCC does not have its own
in Which Information or                                                       ﬁnancial system. Instead, MCC has
                                       The Inspector General Act requires
                                                                              contracted with the Department of
Assistance Was Refused                 an update on issues outstanding
                                                                              Interior’s National Business Center
The Inspector General Act of 1978      under a remediation plan
                                                                              (NBC) to provide accounting and IT
(Public Law 95-452), as amended,       required by the Federal Financial
                                                                              services, including usage of NBC’s
requires the identiﬁcation of any      Management Improvement Act of
                                                                              Oracle Federal Financials System
reports made to the head of an         1996 (FFMIA). FFMIA requires
                                                                              application. However, the NBC had
agency describing where informa-       agencies to substantially comply
                                                                              not conducted an internal control
tion or assistance was refused         with (1) federal ﬁnancial manage-
                                                                              review, such as a Statement of
or not provided. During this           ment system requirements, (2)
                                                                              Auditing Standards (SAS) 70 review,
reporting period, there were no        Federal Accounting Standards,
                                                                              of the Oracle Federal Financials
reports to the Millennium Challenge    and (3) the U.S. Standard General
                                                                              System, nor had MCC requested
Corporation describing instances       Ledger at the transaction level.
                                                                              NBC to conduct such a review.
where information or assistance        According to OMB Circular No.
was unreasonably refused or not        A-11, an agency that is not substan-   The result of omitting such a review
provided.                              tially compliant with FFMIA must       is that management would not have
                                       prepare a remediation plan. The        a comprehensive understanding of
Decisions and Reasons                  purpose of the remediation plan        the system’s internal controls and
for Signiﬁcant Revised                 is to identify ﬁscal year activities   the risks involved in conducting
Management Decisions                   planned and underway that will         system transactions. According to
                                       allow an agency to achieve substan-    MCC, it was the ﬁrst organization
The Inspector General Act requires     tial compliance with FFMIA.            to use the system, which is a new
that each Inspector General’s                                                 system for NBC.
Semiannual Report to the U.S.          Our ﬁscal year 2004 ﬁnancial
Congress include a description and     statement audit, the Millennium        As recommended in OIG’s audit
explanation of signiﬁcant revisions    Challenge Corporation’s ﬁrst           report of MCC’s ﬁscal year 2004
of management decisions. During        ﬁnancial statement audit, noted that   ﬁnancial statements, a SAS 70
this reporting period, there were no   the Corporation’s ﬁnancial manage-     review was completed in September
signiﬁcant revisions of management     ment system was not in substantial     2005. The ﬁscal year 2005 audit
decisions.                             compliance with the federal ﬁnancial   noted that MCC was still not in
                                       management system requirements         full compliance with FFMIA. For
Signiﬁcant Management                  under FFMIA and OMB Circular A-        example MCC’s procurement
Decisions with Which                   127, Financial Management Systems.     system had not been approved by
the Inspector General                  FFMIA ﬁnancial system require-
                                                                              the Federal government, and its
Disagrees                                                                     E-Travel system was not integrated
                                       ments state that a system should
                                                                              with the Oracle Federal Financial
The Inspector General Act requires     comply with OMB Circular A-127,
                                                                              System.
that each Inspector General’s          Financial Management Systems.
Semiannual Report to the U.S.          That Circular requires an agency to    MCC’s management agreed to
Congress include information           conduct an internal control review     address these issues under its reme-
concerning any signiﬁcant manage-      of all federal ﬁnancial systems in     diation plan which will be reviewed
ment decisions with which OIG is in    accordance with FMFIA.                 in the next ﬁnancial statement audit.
disagreement. During this reporting
period, there were no management
decisions with which the OIG
disagreed.

20     SEMIANNUAL REPORT TO THE CONGRESS                                                                 Appendix C
             OIG STATISTICAL SUMMARY
                       USAID
                As of March 31, 2006
              INVESTIGATIVE ACTIONS




                 NOTHING TO REPORT




Appendix D                        SEMIANNUAL REPORT TO THE CONGRESS   21
          U.S. Agency for International Development
                  Ofﬁce of Inspector General
                  1300 Pennsylvania Avenue, NW
                          Room 6.06D
                     Washington, DC 20523
                      www.usaid.gov/oig




The Semiannual Report to the Congress is available on the Internet at
           www.usaid.gov/oig/public/semiann/mcc1.htm
